App. 1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-14245
-----------------------------------------------------------------------

D.C. Docket No. 2:17-cv-00174-KOB
TRINELL KING,
Plaintiff - Appellant,
versus
RICKY PRIDMORE,
COREY ARCHER,
ANDREW HILL,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Alabama
-----------------------------------------------------------------------

(June 5, 2020)
Before ED CARNES and ROSENBAUM, Circuit Judges,
and VINSON,* District Judge.
VINSON, District Judge:

* Honorable C. Roger Vinson, United States District Judge
for the Northern District of Florida, sitting by designation.

App. 2a
On September 28, 2015, Trinell King was reluctantly helping the police apprehend a fugitive in Warrior, Alabama. The operation ended in a shootout in
which the fugitive was shot thirteen times and King
was shot several times and seriously injured. King
brought this civil rights action against three of the
police officers involved, Ricky Pridmore, Andrew
Hill, and Corey Archer (collectively, the officers).1 As
the case was winnowed down, King alleged a § 1983
claim for involuntary servitude under the Thirteenth
Amendment to the U.S. Constitution and a violation
of substantive due process under the Fourteenth
Amendment. He also alleged claims for negligence,
wantonness, failure to train/supervise, and false imprisonment under Alabama state law. In two separate
orders, the District Court granted summary judgment
for the officers on the constitutional claims (based on
qualified immunity) and on the state law claims (based
on state agent immunity). King appeals both rulings.
After full review, and with the benefit of oral argument,
we affirm.
I.
“We review a grant of summary judgment de novo
and apply the same legal standards that governed the
1

King also sued the City of Warrior, its Chief of Police, and
two additional officers as well, but he voluntarily dismissed those
parties, leaving Pridmore, Hill, and Archer as the only defendants.
Although we will collectively refer to them as “officers,” we note
that Pridmore, Hill, and Archer held different ranks at the time
(officer, detective, and lieutenant, respectively).

App. 3a
district court’s decision.” DeMartini v. Town of Gulf
Stream, 942 F.3d 1277, 1288 n.7 (11th Cir. 2019) (citing Ave. CLO Fund, Ltd. v. Bank of Am., N.A., 723 F.3d
1287, 1293 (11th Cir. 2013)). Summary judgment is
properly granted only “ ‘if the movant shows that there
is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.’ ” Id.
(quoting Fed. R. Civ. P. 56(a)). In considering a motion
for summary judgment, the non-movant’s evidence
must be accepted as true and all reasonable inferences
must be drawn in his favor. Shaw v. City of Selma, 884
F.3d 1093, 1098 (11th Cir. 2018); see also Allen v. Bd. of
Pub. Educ. for Bibb Cty., 495 F.3d 1306, 1315 (11th Cir.
2007).
II.
The following facts come almost entirely from
King’s deposition testimony, so for purposes of our review we must (and do) accept these facts as true and
draw all reasonable inferences in his favor.
In the morning hours of September 28, 2015, King
drove his girlfriend’s Chevrolet Monte Carlo from Birmingham to nearby Warrior to give Donavan Brown a
ride. King and Brown were both convicted felons at
the time, and King was on a form of state probation
known as Treatment Alternatives for Safer Communities (TASC), which was part of the Jefferson County
Community Corrections Program (JCCCP). In giving
Brown a ride that morning, King knew that he was
breaking the law in several ways. Specifically, it is

App. 4a
undisputed that he knew: (1) the car didn’t have a license plate; (2) he didn’t have (and, in fact, had never
had) a driver’s license; (3) he was driving without proof
of insurance; and (4) being in the presence of a convicted felon violated his TASC and “the people at
JCCCP wouldn’t have liked that at all.”2
At approximately 9:45 that morning, Officer
Pridmore, who was driving a police SUV with a K-9,
stopped the Monte Carlo because it did not have a license plate. During the stop, Officer Pridmore asked
King for his name and social security number, and
King responded truthfully and produced a valid ID
(albeit not a driver’s license). However, when Officer
Pridmore asked Brown the same questions, Brown
gave false information. Officer Pridmore then went to
his SUV to run their names in his database. Shortly
thereafter, he returned to the Monte Carlo and told
Brown to be honest with him and provide his real
name. King encouraged Brown to do the same, telling
him “yeah, just be one hundred with him. That mean
2

King claims in his appellate brief that he and Brown were
“not good friends” and that he was only giving Brown a ride because Brown’s girlfriend had asked him to. However, King testified that he and Brown grew up together, had attended the same
school, socialized together, and had known each other for approximately 20 years. King also said that he considered Brown his
friend and “homeboy” and that he had given him rides before. In
any event, whether King and Brown had known each other for 20
years (as he testified) or were not good friends (as his brief claims)
is irrelevant to the outcome of this case. Regardless of how their
relationship is characterized, it is undisputed that King knew
Brown well enough to know that Brown, like himself, was a convicted felon.

App. 5a
be honest.” Officer Pridmore again asked Brown for his
name and social security number, but Brown again
gave false information. When Officer Pridmore went
back to his vehicle a second time, King asked Brown
why he was lying, in response to which Brown told him
that he had outstanding warrants and that he was
carrying a gun. Brown told King that he was going to
try and make a run for it, and King said “Oh Lord,” and
began to shake his head. At that point, Brown opened
the passenger side door and ran into some nearby
woods. Officer Pridmore quickly pulled King from the
car, handcuffed him, and put him in the backseat of his
SUV. As he was doing so, King told Officer Pridmore
that Brown had a gun. Officer Pridmore radioed for
back-up and gave chase with his K-9.
Notably, King testified that up to this point in
time, Officer Pridmore hadn’t done anything that King
felt was wrong; in fact, he said that the officer “did
what he was supposed to do.” At some point, a tow
truck was called to the scene and the Monte Carlo was
hoisted onto the truck, but it wasn’t driven away.
A number of police officers reported to the scene
(Hill and Archer among them) to help search the woods
and surrounding area, which included a residential
neighborhood. As they were conducting their search,
several people stopped by to report that Brown had
been seen in the neighborhood. King conceded at deposition that it was (obviously) a dangerous situation for
Brown, while armed with a gun, to be running around
and hiding from the police in a residential neighborhood.

App. 6a
At various points during the search, the officers
asked King questions about Brown. King (who had already voluntarily told the officers about the gun), gave
them Brown’s real name, told them about his outstanding warrants, and provided them with his cell phone
number.3 King testified that he was willing to help the
officers—and in the process he hoped to help himself—
because he knew that he had violated the law and was
at risk of being put back in jail, and he was worried
that his girlfriend’s car was going to be towed.
After looking for Brown for about an hour without
success, the officers got tired and frustrated. They once
again approached King—who was still handcuffed in
the backseat of Officer Pridmore’s SUV—and tried to
get him to do more to help with their search. King
testified as follows (emphasis added):
A: . . . So when they got tired, they came
back with me, like, f**k him, you don’t want to
help us out, we’re going to throw—we’re going
to hit you with this charge, you gonna start
f**king us over, we’ll f**k over you. I don’t
know where you get your car back. You have to
cooperate and help us catch him.
Q: Did they tell you what charges that they
were going to put on you, as you say?

3

A:

No.

Q:

They weren’t specific about any charges?

The officers tried to call Brown on the cell phone number
that King provided, but he wouldn’t answer.

App. 7a
A: No, because, I mean, first of all, I ain’t got
no—they still hadn’t told me why I got pulled
over.
Q: Well, you knew you didn’t have that car
tag; right?
A: Yes. . . . Okay. The lieutenant [Archer] . . .
was doing all the talking, like if you are not
going to help us, we’re going to get you with
this, we’re going to try to throw some charges
on you; we’re going to make sure we f**k over
you, if you f**k over us. I don’t know where you
get your car down, you’ve got to cooperate with
us. Every now and then a car pulled up and
spotted him close. I guess they was trying to
give me time to see what I was going to do. So
I guess they got tired of it. I got tired of it. I’m
already nervous, I’m already fixing to miss out
on [a] job. I need to go to TASC. So I’m like,
man, can ya’ll just stop doing this and get me
wherever ya’ll got to do and let me go because
I didn’t do nothing wrong.
Eventually, the officers devised a ruse to try and
get Brown. The plan was simple and straightforward:
King would tell Brown over the phone that the police
had let him go and offer to pick Brown up wherever he
was hiding, at which point the officers—who were supposed to be following at a distance—would converge on
the scene and arrest him. King told the officers that he
did not want to participate in this ruse, but he contends that he was forced into it and agreed to go along
only because he was “nervous and scared.” Specifically,
he testified that:

App. 8a
A: With the negotiation, the threats, everything they was telling me, if I don’t cooperate
they’re going to throw some charges on me
and they going to f**k over me. So in the
streets that means it could mean anything. It
can mean being shot. It can mean being anything. My life—I was nervous and scared. So I
ain’t never—
Q: What do you mean in the streets that
means?
A: Like what that mean, don’t f**k over me,
I’m going to f**k over you. That mean like if
you cross over them, then they’re going to deal
with you in a bad way, like get shot or killed,
anything. So that’s how I felt. That’s how I was
feeling and they left me no choice.
Although King testified at deposition that he was
concerned the officers might tow his girlfriend’s car
and file criminal charges against him—and those were
factors in his decision—he claims the threat of physical
violence is what ultimately overcame his will and
forced him to participate in the ruse. His attorney conceded the point at oral argument, and King made it
clear in a post-deposition affidavit, where he averred
that (emphasis added):
The Defendants’ threats of violence against me
forced me to pick up Brown. I was repeatedly
asked in my deposition whether I was worried
about my girlfriend’s car being towed, worried
about being charged with traffic offenses, and
worried that I had violated [probation]. I testified that I was worried about these things

App. 9a
and I did not want these things to happen.
This is true. I was also concerned about Defendants making false charges against me, or
planting drugs or a gun on me. However, . . .
[t]he main reason I picked up Brown is that
the Defendants were going to hurt me if I refused. I was ready to go to jail, to have the car
towed, pay any traffic offenses, and fight false
charges if the Defendants had not threatened
to hurt me.
To be clear, the alleged threats of physical violence
against King consisted entirely of the officers telling
him “[if ] you gonna start f**king us over, we’ll f**k
over you.” That was the only language they used that
King perceived to be a threat of violence.4
At or around the time that King (very reluctantly)
agreed to participate in the ruse, Brown called King’s
cell phone. Because he was in handcuffs, one of the officers told everyone to be quiet, answered the phone,
and put it on speaker so that King could play his part.
As they had discussed, King told Brown that the police
had let him go and he offered to pick him up, and
Brown replied that he was hiding in the woods near a
bridge right up the street. King’s car was then taken
down off the tow truck and the officers let him go retrieve Brown, which he did.

4

During his deposition, King was asked to provide all the
details and to be as specific as possible about the officers’ threats,
and that is the only language he mentioned. He was asked several
times if the officers had said anything else to him that was relevant to (or part of ) his claims in this lawsuit, and he said “no.”

App. 10a
Shortly after King picked up Brown near the
woods, the officers attempted to pull the Monte Carlo
over. As King’s car was slowing to a stop, Brown removed the gun from his pocket. When King saw the
gun, he told Brown to get out of the car and run. Instead, Brown started shooting at the police through the
passenger window. The police returned fire, which
King readily concedes they had every right to do.
Brown shot Officer Pridmore once, and the officers shot
Brown thirteen times. King found himself caught in
the crossfire and was shot five times. Fortunately (and
incredibly), all the parties survived—albeit with serious injuries. This lawsuit followed.
III.
It is important to make clear at the outset what
this case is and is not about. King does not challenge
the initial traffic stop itself, and he does not allege that
Officer Pridmore did anything wrong during the stop.
And, as just indicated, he also doesn’t allege that any
of the officers were wrong to return fire once Brown
started firing at them. Rather, this case centers on
what happened between these two events: the ruse
that the officers employed to get Brown. Specifically,
King contends that he was forced to participate under
threats of false criminal charges and physical violence
in violation of the Thirteenth and Fourteenth Amendments, and Alabama state law. The District Court held
that the officers were entitled to qualified immunity on
the constitutional claims and state agent immunity on

App. 11a
the state law claims. We will consider and discuss both
immunities in turn.
A. Qualified Immunity
Qualified immunity protects government officials
who have been sued in their individual capacity “ ‘unless the law preexisting the defendant official’s supposedly wrongful act was already established to such a
high degree that every objectively reasonable official
standing in the defendant’s place would be on notice
that what the defendant official was doing would be
clearly unlawful given the circumstances.’ ” Morton v.
Kirkwood, 707 F.3d 1276, 1280 (11th Cir. 2013) (quoting Pace v. Capobianco, 283 F.3d 1275, 1282 (11th Cir.
2002)). To be entitled to qualified immunity, the government official must first establish that he was acting
within his discretionary authority at the time of the
allegedly unlawful conduct. Id. Because it is undisputed that the officers in this case were performing
discretionary governmental functions at the relevant
time, the burden shifts to King to show (1) that the
officers violated the constitutional rights at issue, and
(2) that those rights were clearly established at the
time of the alleged misconduct. Id. at 1281. “These two
requirements may be analyzed in any order,” Paez v.
Mulvey, 915 F.3d 1276, 1284 (11th Cir. 2019), but it
is “ ‘often beneficial’ ” to analyze them sequentially.
Plumhoff v. Rickard, 572 U.S. 765, 774, 134 S. Ct. 2012,
2020, 188 L. Ed. 2d 1056 (2014) (quoting Pearson v.
Callahan, 555 U.S. 223, 236, 129 S. Ct. 808, 818, 172
L. Ed. 2d 565 (2009)). On the facts of this specific case,

App. 12a
we believe it is appropriate to analyze the two qualified
immunity prongs in order because, as will be seen, a
discussion of what the officers actually did (for purposes of the first step) informs our decision as to
whether that underlying conduct violated clearly established law (at the second step).
(1)

Was there a Violation of Constitutional Rights?

At the first step in the qualified immunity analysis, we consider whether the officers violated King’s
Thirteenth and Fourteenth Amendment rights.
The Thirteenth Amendment provides, in relevant
part, that “[n]either slavery nor involuntary servitude,
except as a punishment for crime whereof the party
shall have been duly convicted, shall exist within the
United States, or any place subject to their jurisdiction.” U.S. Const. Amend. XIII, § 1. “While the immediate concern was with African slavery, the Amendment
was not limited to that. It was a charter of universal
civil freedom for all persons, of whatever race, color, or
estate, under the flag. The words involuntary servitude
have a ‘larger meaning than slavery.’ ” Bailey v. State
of Alabama, 219 U.S. 219, 240-41, 31 S. Ct. 145, 151, 55
L. Ed. 191 (1911). “Various forms of coercion may constitute a holding in involuntary servitude. The use, or
threatened use, of physical force . . . is the most grotesque example of such coercion.” United States v.
Warren, 772 F.2d 827, 833-34 (11th Cir. 1985). Another
example of involuntary servitude is when “the victim
is forced to work for the defendant . . . by the use or

App. 13a
threat of coercion through law or the legal process.”
United States v. Kozminski, 487 U.S. 931, 952, 108
S. Ct. 2751, 2765, 101 L. Ed. 2d 788 (1988). The temporal duration of the involuntary servitude need not be
long; it “can be slight.” United States v. Pipkins, 378
F.3d 1281, 1297 (11th Cir. 2004), vacated on other
grounds, but later reinstated, 412 F.3d 1251 (11th Cir.
2005).
The Fourteenth Amendment provides, in relevant
part, that “[n]o State shall . . . deprive any person of
life, liberty, or property, without due process of law[.]”
U.S. Const. Amend. XIV, § 1. “The Supreme Court has
interpreted this clause to provide two distinct guarantees: substantive due process and procedural due process.” DeKalb Stone, Inc. v. Cty. of DeKalb, Ga., 106 F.3d
956, 959 (11th Cir. 1997) (citing Zinermon v. Burch, 494
U.S. 113, 125, 110 S. Ct. 975, 983, 108 L. Ed. 2d 100
(1990)). The right to substantive due process—the
claimed right at issue in this case—protects individuals from arbitrary conduct by government officials
that “shocks the conscience.” See id.; see also Waddell
v. Hendry Cty. Sheriff ’s Office, 329 F.3d 1300, 1305
(11th Cir. 2003). “The somewhat nebulous ‘shocks the
conscience’ phrase has taken on different meanings in
different cases, depending on a given case’s factual
setting.” Nix v. Franklin Cty. Sch. Dist., 311 F.3d 1373,
1375 (11th Cir. 2002). It has generated “[c]onfusion in
jurisprudence that can be fairly described as untethered from the text of the Constitution,” and, for that
reason, “the Supreme Court has been ‘reluctant to expand the concept of substantive due process.’ ” Echols

App. 14a
v. Lawton, 913 F.3d 1313, 1326 (11th Cir. 2019) (quoting Collins v. Harker Heights, 503 U.S. 115, 125, 112
S. Ct. 1061, 1068, 117 L. Ed. 2d 261 (1992)). Thus, to
prove a substantive due process violation, plaintiffs
face a very “high bar.” Maddox v. Stephens, 727 F.3d
1109, 1119 (11th Cir. 2013); see also Nix, 311 F.3d at
1379 (“Substantive due process is a doctrine that has
been kept under tight reins, reserved for extraordinary
circumstances.”). Indeed, “[e]ven intentional wrongs
seldom violate the Due Process Clause, and ‘only the
most egregious official conduct can be said to be ‘arbitrary in the constitutional sense.’ ” Maddox, 727 F.3d
at 1119 (quoting Cty. of Sacramento v. Lewis, 523 U.S.
833, 846, 118 S. Ct. 1708, 1716, 140 L. Ed. 2d 1043
(1998)).
King contends that the officers forced him to
“work” for them under threat of false criminal charges
and physical violence. For our analysis, we will assume, arguendo, that it would indeed violate the Thirteenth and Fourteenth Amendments if the officers had
made such threats. But that begs the question: is there
evidence they actually did that?
As for the alleged false charges, King testified that
the officers never told him they were going to charge
him with any specific crime, let alone false crimes. The
officers never said or implied, for example, that they
would plant evidence on him and charge him with a
drug or firearm offense (or any other false crime) if
he didn’t help them. According to King, the officers
merely told him that they would “throw some charges
on [him]” if he didn’t agree to participate in their ruse.

App. 15a
It is undisputed, however, that there were several different offenses that he could have been lawfully
charged with—at least three motor vehicle violations
and being in the presence of a convicted felon while on
probation. It simply doesn’t violate the Constitution
for police officers searching for an armed fugitive running and hiding in a residential neighborhood to tell
his confederate who has himself violated the law that
he could be charged unless he helps find him. The police lawfully use the same or similar tactics to encourage and incentivize people to assist law enforcement
all the time. To be sure, confidential informants don’t
usually agree to help the police out of a sense of altruism or civic duty but, rather, because they are facing
arrest and have been threatened with prosecution for
their own criminal conduct. Thus, even taking King’s
testimony as true and drawing all reasonable inferences in his favor, there is no evidence that the officers
threatened him with false charges. King is essentially
asking us to speculate that when the officers said
they were going to “throw some charges on [him]” that
meant false charges. This we cannot do since there is
no evidence to support it. See, e.g., Chapman v. Am. Cyanamid Co., 861 F.2d 1515, 1518 (11th Cir. 1988) (explaining that although reasonable inferences must be
drawn in favor of the non-movant on summary judgment, “an inference based on speculation and conjecture is not reasonable”); see also Lee v. Celotex Corp.,
764 F.2d 1489, 1491 (11th Cir. 1985) (“The allegation
that plaintiff [relied on to avoid summary judgment] is
not supported by reasonable inferences arising from
the undisputed facts, but is based on speculation and

App. 16a
conjecture that renders them mere guesses or possibilities.”).5
As for the alleged threats of physical violence, the
evidence is similarly thin. If the officers had told King
“help us, or we’re going to f**k you up” (or something
like that) then King would have a more compelling argument. But that isn’t what he said they said. Instead,
King testified that the officers told him “[if ] you don’t
want to help us out, we’re going to throw—we’re going
to hit you with this charge, you gonna start f**king us
5

Although King conceded at deposition that the officers
never threatened to charge him with any specific crime, he stated
in his post-deposition affidavit that he was “concerned” they were
going to plant drugs or a gun on him and charge him with a false
crime. He argues in his brief on appeal that this was a reasonable
inference to draw because the officers had threatened him with
“serious” charges, and the offenses that he committed weren’t serious. We see at least three problems with this argument. First,
there is no evidence in the record to support this argument. King
never said at his deposition (or in his affidavit) that the officers
threatened him with “serious” charges. He said only that they
threatened to “throw some charges” on him. Second, even if the
officers had threatened him with serious charges and the offenses
that he committed wouldn’t usually qualify, the consequences of
his being charged with those minor offenses in this case—i.e., his
girlfriend’s car being towed and the possibility if not probability
that his probation would be revoked and he would be sent back to
prison—were things that most people (both civilians and law enforcement alike) would consider serious. Third and lastly, it bears
noting that even if we accept that the officers threatened him with
serious and false charges, King testified that he was willing to
fight those charges in court. Thus, as earlier noted (and as his
attorney acknowledged at oral argument), it wasn’t the threat of
false charges that he claims overcame his will and forced him to
assist in the ruse. It was the alleged threat of physical violence,
which we will discuss next in the text above.

App. 17a
over, we’ll f**k over you. I don’t know where you get
your car back.” Thus, when the “if you f**k over us,
we’ll f**k over you” language is viewed in the context
that King himself provides, it is clear the officers were
warning him that if he did something that they perceived as bad to them first (i.e., not participate in the
ruse), then they would respond in kind and do something bad to him, specifically by charging him and towing his girlfriend’s car for an indefinite duration.
In short, based on the facts as taken from King’s
own deposition testimony, the officers didn’t violate the
Thirteenth or Fourteenth Amendment. Nevertheless,
as will be seen next, we don’t have to (so we don’t) hang
our hat solely on that peg of the analysis.
(2)

Was the Law “Clearly Established”?

Assuming that King has shown a violation of the
Thirteenth and Fourteenth Amendments, we next consider whether it was “clearly established” that what
the officers did in this case violated his rights thereunder. In doing so, we must apply a “wholly objective”
standard:
The qualified immunity defense embodies an
objective reasonableness standard, giving a
government agent the benefit of the doubt,
provided that the conduct was not so obviously illegal in the light of then-existing law
that only an official who was incompetent or
who knowingly was violating the law would
have committed the acts. Because we have rejected the inquiry into an official’s state of

App. 18a
mind in favor of a wholly objective standard,
the government actor’s intent and motivation
are insignificant in determining entitlement
to qualified immunity. State officials can act
lawfully even when motivated by a dislike or
hostility if the record shows that they would
have acted in the same way without such sentiments. . . . Whenever a public officer is sued
for money damages in his individual capacity
for violating federal law, the basic qualified
immunity question looms unchanged: Could a
reasonable officer have believed that what the
defendant did might be lawful in the circumstances and in the light of the clearly established law?
Crosby v. Paulk, 187 F.3d 1339, 1344-45 (11th Cir.
1999) (citations, quotation marks, and brackets omitted). Thus, “[f]or the law to be clearly established to
the point that qualified immunity does not protect a
government official, pre-existing law must dictate, that
is, truly compel (not just suggest or allow or raise a
question about), the conclusion for every like-situated,
reasonable government agent that what defendant is
doing violates federal law in the circumstances.” Hudson v. Hall, 231 F.3d 1289, 1294 (11th Cir. 2000) (citation and quotation marks omitted). This “standard of
objective reasonableness” provides protection to “ ‘all
but the plainly incompetent or those who knowingly
violate the law.’ ” Priester v. City of Riviera Beach, Fla.,
208 F.3d 919, 925 (11th Cir. 2000) (quoting Malley v.
Briggs, 475 U.S. 335, 341, 106 S. Ct. 1092, 1096, 89
L. Ed. 2d 271 (1986)).

App. 19a
In undertaking this analysis, we are mindful that
the Supreme Court has “repeatedly told courts . . . not
to define clearly established law at a high level of generality.” Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131
S. Ct. 2074, 2084, 179 L. Ed. 2d 1149 (2011) (citations
omitted); see also White v. Pauly, ___ U.S. ___, 137 S. Ct.
548, 551-52, 196 L. Ed. 2d 463 (2017) (“In the last five
years, this Court has issued a number of opinions reversing federal courts in qualified immunity cases. . . .
Today, it is again necessary to reiterate the longstanding principle that ‘clearly established law’ should not
be defined ‘at a high level of generality.’ As this Court
explained decades ago, the clearly established law
must be ‘particularized’ to the facts of the case.”) (citations omitted).
For a right to be “clearly established,” the contours
of the right must be so clear that a reasonable official—
again, judged by an objective standard—would know
that he was violating that right. See Corbitt v. Vickers,
929 F.3d 1304, 1311 (11th Cir. 2019). A plaintiff can
show that the contours of the right at issue were
clearly established in one of three ways:
First, the plaintiffs may show that a materially similar case has already been decided.
Second, the plaintiffs can point to a broader,
clearly established principle that should control the novel facts of the situation. Finally,
the conduct involved in the case may so obviously violate the constitution that prior case
law is unnecessary. Under controlling law, the
plaintiffs must carry their burden by looking
to the law as interpreted at the time by the

App. 20a
United States Supreme Court, the Eleventh
Circuit, or the [relevant State Supreme
Court].
Terrell v. Smith, 668 F.3d 1244, 1255-56 (11th Cir.
2012) (citations, quotation marks, and brackets omitted); id. at 1256-58 (discussing the three methods in
further detail); see also Vinyard v. Wilson, 311 F.3d
1340, 1350-53 (11th Cir. 2002) (same).
King agrees that there is no materially similar
case on point, so the first method is out. Consequently,
the question is whether this case falls under the second
or third methods to establish that the law at issue was
clearly established.
The second and third methods are known as “obvious clarity” cases. Gaines v. Wardynski, 871 F.3d
1203, 1209 (11th Cir. 2017). “They exist where the
words of the federal statute or constitutional provision
at issue are so clear and the conduct so bad that case
law is not needed to establish that the conduct cannot
be lawful, or where the case law that does exist is so
clear and broad (and not tied to particularized facts)
that every objectively reasonable government official
facing the circumstances would know that the official’s
conduct did violate federal law when the official acted.”
Id. (citation, quotation marks, and footnote omitted).
In Dukes v. Deaton, 852 F.3d 1035 (11th Cir. 2017), we
conflated the two methods and referred to them together as a “narrow exception.” Id. at 1043; accord Lee
v. Ferraro, 284 F.3d 1188, 1199 (11th Cir. 2002) (same).
Cases that fall under this narrow exception are rare

App. 21a
and don’t arise often. Gaines, 871 F.3d at 1209 (citing
multiple cases); see also, e.g., Rowe v. City of Fort
Lauderdale, 279 F.3d 1271, 1280 n.10 (11th Cir. 2002).
In light of the rarity of obvious clarity cases, if a
plaintiff cannot show that the law at issue was clearly
established under the first (materially similar case on
point) method, that usually means qualified immunity
is appropriate. Corbitt, 929 F.3d at 1312 (“Notwithstanding the availability of [the obvious clarity exceptions], this Court has observed on several occasions
that ‘if case law, in factual terms, has not staked out a
bright line, qualified immunity almost always protects
the defendant.’ ”) (citing Oliver v. Fiorino, 586 F.3d 898,
907 (11th Cir. 2009), in turn quoting Priester, 208 F.3d
at 926)).
We have no difficulty concluding that this is not
the sort of case that would justify applying the rare
and narrow exception to requiring a plaintiff to identify a materially similar case on point. Again, sandwiched in between telling King that they were going to
“throw some charges” on him if he didn’t help with the
ruse, and that they were going to tow his girlfriend’s
car and they didn’t know when or how he would be able
to get it back, the officers told him “[if ] you gonna start
f**king us over, we’ll f**k over you.” It cannot be maintained that all objectively reasonable officers in their
position would have known—with obvious clarity—
that what they said, in context, would necessarily be
understood as a threat of false criminal charges and
physical violence in violation of the Constitution.
While King may have subjectively interpreted the

App. 22a
officers’ words to that effect, that is categorically not
the standard that we must apply.6
In summary, even if the officers violated the Thirteenth and Fourteenth Amendments (and, as discussed earlier, we do not believe they did), those rights
were not so clearly established that all objectively reasonable officers in their position would have known
that what they said to King violated the Constitution’s
prohibition against involuntary servitude or its “nebulous” doctrine of substantive due process.
B. State Agent Immunity
Alabama law provides state agents with “immunity from tort liability arising out of his or her conduct
in performance of any discretionary function within
the line and scope of his or her law enforcement duties.” Ala. Code § 6-5-338(a). As we recently noted in
Hunter v. Leeds, City of, 941 F.3d 1265 (11th Cir. 2019),
the restatement of state-agent immunity that the Alabama Supreme Court set forth in Ex parte Cranman,
792 So. 2d 392 (Ala. 2000), governs whether the officers
are entitled to immunity under § 6-5-338(a). Id. at
1283 (citations omitted). The test laid out in Cranman,
6

Even if King’s subjective interpretation of what the officers
said was reasonable from his point of view, a reasonable officer in
their position could have seen it as mere enticement. Indeed, King
himself testified that the officers’ statement “could mean anything.” If what they told King could mean “anything” to someone
in his position, it obviously cannot be said that all reasonable
officers in their position would have known it to mean an unconstitutional threat of false criminal charges and physical violence.

App. 23a
subsequently modified by Hollis v. City of Brighton,
950 So. 2d 300 (Ala. 2006), provides in relevant part as
follows:
A State agent shall be immune from civil liability in his or her personal capacity when the
conduct made the basis of the claim against
the agent is based upon the agent’s . . . exercising judgment in the enforcement of the
criminal laws of the State, including, but not
limited to, law-enforcement officers’ arresting
or attempting to arrest persons, or serving as
peace officers under circumstances entitling
such officers to immunity pursuant to § 6-5338(a).
Hunter, 941 F.3d at 1283 (quoting Ex parte City of
Homewood, 231 So. 3d 1082, 1087 (Ala. 2017) (quotation marks and citations omitted)). In other words, law
enforcement officers are generally immune from tort
liability for conduct that falls within the scope of
their discretionary law enforcement duties. Id. (citing
Brown v. City of Huntsville, Ala., 608 F.3d 724, 741
(11th Cir. 2010)). However, there are exceptions to this
general rule. Specifically, “a state agent is not entitled
to state-agent immunity if (1) the U.S. Constitution,
federal law, the state Constitution, or state laws, rules,
or regulations enacted or promulgated for the purpose
of regulating the activities of a governmental agency,
require otherwise; or (2) the agent acts ‘willfully, maliciously, fraudulently, in bad faith, beyond his or her
authority, or under a mistaken interpretation of the
law.’ ” Id. (citations omitted).

App. 24a
The test for discretionary function and state-agent
immunity follows the same burden-shifting analysis as
the test for federal qualified immunity. Hunter, 941
F.3d at 1283. First, the officer asserting immunity has
the burden to show that the plaintiff ’s claims arise
from a function that would entitle the officer to immunity. Id. (citations omitted). The burden then shifts
to the plaintiff to show that one of the two aforementioned exceptions applies. Id. Because the officers here
were performing discretionary law enforcement functions at the relevant time, the burden shifts to King to
show “either that they failed to discharge their duties
in accordance with the law or that they acted willfully,
maliciously, fraudulently, in bad faith, beyond their authority, or under a mistaken interpretation of the law.”
Id. at 1283-84.
This Court has observed several times that because the Alabama Supreme Court has largely equated
federal qualified immunity with state discretionaryfunction immunity, “the same facts which establish an
entitlement to qualified immunity may also establish
that the officers are entitled to discretionary-function
immunity.” Id. at 1284; accord id. (“For the same reasons that Jackson, Reaves, and Chalian are entitled to
qualified immunity on Hunter’s § 1983 claim, we find
that they are also entitled to discretionary-function
immunity on Hunter’s state-law claims.”); see also, e.g.,
Sheth v. Webster, 145 F.3d 1231, 1239-40 (11th Cir.
1998) (“Under both Alabama law and federal law, the
core issue is whether a defendant violated clearly established law . . . The same facts which establish

App. 25a
Sergeant Williams’ entitlement to qualified immunity
establish that his acts were not willful, malicious or in
bad faith. The Alabama Supreme Court has equated
qualified immunity with discretionary function immunity.”).
For the same reasons that the officers are entitled
to qualified immunity on King’s § 1983 claims, we find
that they are also entitled to discretionary-function
immunity on his state law claims.7
IV.
The decision by the District Court granting the
officers qualified immunity on the federal claims and
state agent immunity on the Alabama state law claims
is AFFIRMED.

7

We recognize, as was noted in Sheth, “that entitlement to
qualified immunity under federal law will [not] always entitle a
defendant to discretionary function immunity.” 145 F.3d at 1240
n.8. But we find that result justified on the facts of this case. Because federal and state law do not “require otherwise,” and because there is insufficient evidence that the officers acted
“willfully, maliciously, fraudulently, in bad faith, beyond [their]
authority, or under a mistaken interpretation of the law,” we
don’t find it necessary to undertake a separate analysis. The same
reasons that entitle the officers to qualified immunity here entitle
them to state agent immunity.

App. 26a
ROSENBAUM, Circuit Judge, concurring in the judgment:
I concur in the judgment. As for footnote 2, the
point there is that it is “undisputed that King knew
Brown well enough to know that Brown . . . was a convicted felon.” See Op. at 4 n.2. In fact, King outright
admitted knowing before the events at issue in this
case that Brown was a convicted felon. ECF No. 65-3
at 23(87-88). That fact has never been in dispute. For
that reason, I fail to see the purpose of the rest of footnote 2.

App. 27a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
TRINELL KING,
Plaintiff,
v.
COREY ARCHER, et al.,
Defendants.

]
]
]
CIVIL ACTION NO.
]
2:17-CV-174-KOB
]
]
]

MEMORANDUM OPINION
(Filed Sep. 6, 2018)
In this § 1983 case, the police used Plaintiff Trinell
King as unwilling bait in an impulsive fishing expedition that, unsurprisingly, went awry. Mr. King claims
that Defendants Corey Archer, Ricky Pridmore, and
Andrew Hill, all officers with the City of Warrior police
department, violated the Fourteenth Amendment’s
guarantee of substantive due process by acting with
deliberate indifference to his health and safety. Mr.
King also brings state-law claims of negligence, wantonness, and false imprisonment. The case is now before the court on the Officers’ motions for summary

App. 28a
judgment as to all claims. (Docs. 63, 67).1 Also before
the court is the Officers’ “Motion to Strike.” (Doc. 85).
The court will DENY the Officers’ motion to strike.
(Doc. 85). The court will GRANT the Officers’ motions
for summary judgment. (Docs. 63, 67).
In short, Mr. King asserts that the Officers threatened to injure him or prosecute him on false charges
unless he agreed to help them in their half-baked sting
operation. Mr. King, who received several gunshot
wounds as a reward for acting as the Officers’ lure in
the botched sting, explains that he only agreed to help
the Officers because of these threats.
Mr. King argues that, because, by threatening
him, the Officers deprived him of his ability to choose
whether he participated in the dangerous sting, the
Officers are liable under the Fourteenth Amendment
for their deliberate indifference to the safety risks
posed to him by the operation. On similar grounds, Mr.
King claims that the Officers acted with negligence
and wantonness and that their acts resulted in his
false imprisonment. The Officers raise qualified immunity as to the § 1983 claim and state-agent immunity as to the state-law claims.
Only for the purpose of deciding the Officers’ entitlement to qualified immunity, the court assumes that
Mr. King has shown that the Officers acted to deprive
1

Each Defendant adopts the others’ arguments in their motions for summary judgments; so, in effect, their motions are one
in the same.

App. 29a
him of his Fourteenth Amendment right to substantive
due process. But to overcome the qualified immunity
defense, Mr. King must also show that the right violated by the Officers was clearly established, which, in
this case, requires Mr. King to establish that a reasonable officer would have known the Officers’ acts rendered Mr. King’s consent to participate in the sting
operation involuntary. Here, although the Officers’ acts
may have left Mr. King with the belief that he had no
choice but to participate in the sting, the same acts
would not have been plainly or obviously coercive to a
reasonable officer. Hence, the constitutional violation
asserted by Mr. King is not clearly established.
The Officers are entitled to qualified immunity as
to Mr. King’s Fourteenth Amendment substantive
due process claim and state-agent immunity as to Mr.
King’s state-law claims. The court will GRANT the
Officers’ motions for summary judgment. (Docs. 63,
67). The court explains its decisions in further detail
below.
STANDARD OF REVIEW
Summary judgment is an integral part of the Federal Rules of Civil Procedure. Summary judgment allows a trial court to decide cases when no genuine
issues of material fact are present and the moving
party is entitled to judgment as a matter of law. See
Fed. R. Civ. P. 56. When a district court reviews a motion for summary judgment, it must determine two
things: (1) whether any genuine issues of material fact

App. 30a
exist; and if not, (2) whether the moving party is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(c).
The moving party “always bears the initial responsibility of informing the district court of the basis for
its motion, and identifying those portions of ‘the pleadings, depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any,’
which it believes demonstrate the absence of a genuine
issue of material fact.” Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986) (quoting Fed. R. Civ. P. 56). The moving
party can meet this burden by offering evidence showing no dispute of material fact or by showing that the
non-moving party’s evidence fails to prove an essential
element of its case on which it bears the ultimate burden of proof. Id. at 322-23.
Once the moving party meets its burden of showing the district court that no genuine issues of material
fact exist, the burden then shifts to the non-moving
party “to demonstrate that there is indeed a material
issue of fact that precludes summary judgment.” Clark
v. Coats & Clark, Inc., 929 F.2d 604, 608 (11th Cir.
1991). In reviewing the evidence submitted, the court
must “view the evidence presented through the prism
of the substantive evidentiary burden,” to determine
whether the nonmoving party presented sufficient evidence on which a jury could reasonably find for the
nonmoving party. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 254 (1986); Cottle v. Storer Commc’n, Inc., 849
F.2d 570, 575 (11th Cir. 1988). And the court must view
all evidence and inferences drawn from the underlying
facts in the light most favorable to the nonmoving

App. 31a
party. Graham v. State Farm Mut. Ins. Co., 193 F.3d
1274, 1282 (11th Cir. 1999).
FACTS
Plaintiff Trinell King enjoyed the morning of
September 28, 2015, cruising Highway 31 near Warrior,
Alabama, in his girlfriend’s bright red Chevy Monte
Carlo. His passenger, Donovan Brown, a convicted
felon, carried a pistol and apparently few qualms about
using it.2
The car Mr. King drove had no license plate. And
at around 9:45 AM on that early-fall Monday, Defendant Ricky Pridmore, an officer with the City of Warrior
police department, saw Mr. King and the Monte Carlo,
noticed that it lacked a license plate, and consequently
conducted a traffic stop. During the stop, Officer Pridmore discovered that Mr. King also did not have a
driver’s license. And, worse, Mr. King was serving a
criminal sentence, having been released on probation.
Mr. King’s choices to drive a car without a license plate,
drive a car without a valid driver’s license, and associate with a convicted felon would have been sufficient
under Alabama law to revoke his probation.
When Officer Pridmore returned to his patrol car
to attempt to verify Mr. King’s and Mr. Brown’s identities, Mr. Brown told Mr. King that he was carrying a
2

In his deposition Mr. Brown testified that he “had” to shoot
at the police officers who attempted to arrest him because he felt
that Mr. King “sold [him] out” to the police. (Doc. 65-9 at 11).

App. 32a
gun, that he had outstanding warrants for his arrest,
and that he wanted to flee. Almost as soon as he said
those words, Mr. Brown bailed out of the car and fled
into the woods alongside the highway.
When Mr. Brown fled, Officer Pridmore quickly
detained Mr. King and secured him inside the patrol
car. Defendant Corey Archer, a lieutenant with the
City of Warrior police department, arrived on the scene
minutes later. Defendant Andrew Hill, a detective, also
arrived at the scene. The three officers—assisted by
Officer Pridmore’s K-9—then began searching for Mr.
Brown in the nearby wooded area.
Mr. King remained detained in Officer Pridmore’s
patrol vehicle for the duration of the search, which
lasted until around 11:00 AM. During that time, Mr.
King freely offered assistance to the Officers, telling
them what he knew about Mr. Brown—including that
Mr. Brown had a gun—and showing the police where
he picked up Mr. Brown. The Officers’ search, however,
was unsuccessful.
The Officers called a tow truck to remove the
Monte Carlo from the scene; they intended to write Mr.
King a ticket and then grab lunch. Yet, before towing
the vehicle, the Officers devised a plan to catch Mr.
Brown. Their plan required Mr. King’s assistance.
As Mr. King relates the events, the Officers surrounded Mr. King—who remained handcuffed in the
back of the patrol car—and told him that, if he refused
to play the role of bait, they would tow his girlfriend’s
car and bring “serious” charges against him. And, the

App. 33a
Officers summarily informed Mr. King that if he
“fuck[ed] over” the police, they would “fuck [him] over”
as well. (Doc. 81 at 17).
In his deposition, Mr. King testified that he perceived this latter statement as a threat to physically
injure him because “in the streets” such statement
could mean “anything,” including physical violence.
(Doc. 65-3 at 53). In an affidavit submitted after his
deposition,3 Mr. King averred that his belief that the
Officers would physically injure him as reprisal for refusing to cooperate was the main factor motivating
him to help in the sting operation.
At some point during the exchange, Mr. Brown
called Mr. King’s cell phone. At the Officers’ direction,
Mr. King answered the call, said that he had been released, and asked Mr. Brown about his current location. Mr. Brown told Mr. King that he was in the woods
nearby. At the Officers’ direction, Mr. King offered to
pick up Mr. Brown.
Lieutenant Archer and Detective Hill planned to
use Mr. King to capture Mr. Brown. They told Mr. King
to pick up Mr. Brown in the Monte Carlo and drive onto
the nearby interstate highway. And they told Mr. King
that they and other officers—five or six in total—
would be following close behind. Lieutenant Archer
and Detective Hill planned to stop the vehicle on the
3

The Officers have asked the court to strike Mr. King’s affidavit, which Mr. King only provided after the Officers filed the
motions for summary judgment currently before the court. The
court denies that request as discussed in further detail below.

App. 34a
interstate, ideally in an area with a wall to prevent a
second escape by Mr. Brown. The Officers told Mr. King
to tell Mr. Brown to throw away his gun before allowing him into the car.
Mr. King agreed to participate, but he maintains
that he only did so because the Officers threatened to
hurt him or prosecute him on false charges if he refused. The Officers removed Mr. King’s handcuffs and
lowered the Monte Carlo from the tow truck and returned its keys to him. Mr. King drove away as directed
and picked up Mr. Brown.
But, the ruse did not fool Mr. Brown. Mr. King tried
to confirm that Mr. Brown did not have his gun, but
Mr. Brown, perhaps contemplating revenge, lied and
told him that he had left it in the woods. Mr. King then
drove toward the interstate highway as directed. But
Mr. King or Mr. Brown saw the officers behind them
before they drove onto the highway; worse, the officers
attempted to conduct the traffic stop too soon. Mr. King
then stopped or attempted to stop the car and told
Mr. Brown to get out of the car.
Mr. Brown refused, choosing instead to open fire
on the police; the Officers responded likewise. Mr.
Brown testified in his deposition that he shot at the
police in part because he wanted to get revenge on
Mr. King for helping the police catch him.
As Mr. Brown intended, Mr. King found himself
caught in the crossfire; he was shot five times. The
police shot Mr. Brown 13 times, and Mr. Brown shot
Officer Pridmore once. Miraculously, all parties

App. 35a
survived—albeit with serious injuries. Mr. King subsequently filed the instant lawsuit.
MOTION TO STRIKE
The court first addresses the Officers’ motion to
strike. The Officers ask that the court exclude three of
Mr. King’s submissions of evidence: (1) an audio recording of an investigator’s interview with Mr. King during
his post-shooting hospitalization; (2) a compilation of
summaries prepared of that interview by investigators; and (3) Mr. King’s post-deposition affidavit (doc.
80-1).
The court will DENY the Officers’ motion as to the
audio recording of Mr. King’s interview and the compilation of summaries prepared of the interview. The
court agrees, however, that—considered or not—neither piece of evidence “affect[s] the outcome of this
case under the governing substantive law.” (Doc. 85 at
5). In light of that conclusion, the court sees no reason
to consider the issue further.
Conversely, the court’s potential rejection of Mr.
King’s post-deposition affidavit could alter the outcome of the Officers’ summary judgment motions. In
his post-deposition affidavit, Mr. King avers (1) that no
one asked him at his deposition whether the Officers
threatened to physically harm him if he failed to cooperate, and (2) that the Officers, in fact, threatened to
physically harm him if he failed to cooperate.

App. 36a
The Officers move to strike Mr. King’s post-deposition affidavit on the ground that, at his deposition and
despite being asked whether he had omitted any critical facts relevant to why he participated in the sting
operation, Mr. King failed to mention that the Officers
threatened to physically harm him if he did not cooperate in their sting operation. Although the Officers do
not argue that Mr. King directly contradicts his deposition testimony in his affidavit, they contend that his
omission of these critical facts amounts to acknowledging that the Officers did not threaten to physically injure him.
The motion to strike relies on the principle that a
court should disregard as a “sham” the content of a
post-deposition affidavit to the extent it directly contradicts earlier deposition testimony without explanation. See Tippens v. Celotex Corp., 805 F.2d 949, 953
(11th Cir. 1986). And a thin line exists between discrepancies that create “sham” affidavits and discrepancies
that create credibility issues. While the court may disregard an affidavit in the former case, a jury must resolve the latter. Id. at 953-54.
The court finds that Mr. King did not testify inconsistently in his deposition and in his affidavit. Mr. King
testified that he perceived certain remarks made by the
Officers as implied threats to physically harm him.
For example, in his deposition, Mr. King said—somewhat unclearly—that he interpreted the Officers’
statement that “we’re going to make sure we f--- over
you, if you f--- over us” as an implied threat of physical
violence as reprisal for refusing to cooperate in the

App. 37a
sting operation. And, in his deposition, Mr. King made
known his belief that “in the streets” the Officers’ remarks “could mean anything,” including physical violence. (Doc. 65-3 at 53).
The court sees Mr. King’s post-deposition affidavit
as a clarification of that testimony. Indeed, in his affidavit, Mr. King states—just as he did in his deposition—that he felt threatened and that he feared
physical reprisal if he refused to participate in the
sting operation. Likewise, in his response to the Officers’ motion to strike, Mr. King acknowledges that his
affidavit simply “articulat[ed] what he thought and
felt, not what someone else thought and felt.” (Doc. 92
at 5). Accordingly, the court will not strike Mr. King’s
affidavit as a sham. See Tippens, 805 F.2d at 953.
Yet the court also finds that, by failing to identify
any specific and express threat in response to the Officers’ counsel’s request at the deposition to identify significant information relevant to his claims that he had
not yet testified about, Mr. King implicitly acknowledged that the Officers did not make any specific and
express threat to injure him. The Officers’ counsel
asked Mr. King if he had failed to mention any other
significant facts, and an express statement from the
Officers such as, “We will hit you if you refuse to help
us,” is nothing if not significant. (Doc. 65-3 at 39). Mr.
King thus had sufficient opportunity at his deposition
to identify any express threats of physical harm; further, the broad questions counsel asked of him required him to identify any such threats. Likewise, in
his affidavit, Mr. King does not identify what, if

App. 38a
anything, the Officers said that he might have interpreted as an express threat. Instead, he only generally
states that the Officers threatened him.
In sum, the court will not strike Mr. King’s affidavit as requested by the Officers, but the court also cannot reasonably infer from Mr. King’s testimony or
affidavit that the Officers made an express threat to
harm him. The court will DENY the motion to strike.
DISCUSSION
The court turns next to the substance of Mr. King’s
claims. Mr. King argues that the Officers violated the
Fourteenth Amendment’s guarantee of substantive
due process by forcing him to assist in Mr. Brown’s capture. He also contends, under Alabama law, that the
Officers acted negligently and wantonly in planning
the sting operation and that the Officers falsely imprisoned him. The court addresses Mr. King’s § 1983
claim first and then his state-law claims. Ultimately,
Mr. King fails to overcome the significant barriers of
qualified immunity and state-agent immunity. The
court, therefore, will grant the Officers’ motions for
summary judgment in all respects.
I.

Fourteenth Amendment Substantive Due Process Claim (Count 1)

Through § 1983, Mr. King asserts that the Defendant Officers violated his Fourteenth Amendment
right to due process by forcing him to participate in the

App. 39a
capture of a dangerous fugitive. The Officers assert
qualified immunity.
The applicability of qualified immunity presents a
question of law for the court. Lee v. Ferraro, 284 F.3d
1188, 1190 (11th Cir. 2002). To be eligible for qualified
immunity, a government official must first establish
that he was acting within the scope of his discretionary
authority when the alleged wrongful acts occurred. Id.
at 1194. The burden then shifts to the plaintiff to show
that qualified immunity is inappropriate. Id. The claim
of qualified immunity then fails only if the plaintiff has
shown the deprivation of a clearly-established constitutional right. See Saucier v. Katz, 533 U.S. 194, 201
(2001); see also Pearson v. Callahan, 555 U.S. 223, 236
(2009) (holding that courts may conduct Saucier’s
analysis in any order).
The parties do not contest that, in interrogating
Mr. King and conducting the sting operation, the Officers acted within their discretionary authority. In consequence, the court must only determine whether the
Officers violated a clearly-established constitutional
right.
Mr. King claims that the Officers deprived him of
his Fourteenth Amendment substantive due process
rights first by “forcing him to participate in [the Officers’] dangerous sting operation by threatening to hurt
him and (to a lesser extent) bring false charges against
him,” and second by “failing to protect him from the
real threat of being shot by [Mr.] Brown during the
sting.” (Doc. 81 at 36). He points specifically to the

App. 40a
Officers’ threats that they would bring “serious”
charges against him as evidence that the Officers intended to prosecute him on false charges and he points
to the Officers’ statement that they would “f--- [him]
over” as evidence that the Officers intended to injure
him.
From those remarks, Mr. King concludes that, under the circumstances, he did not face the permissible
choice of jail or participation in the sting, but the impermissible choice of participation in the sting or violent retaliation from the police. The court will assume,
for the purpose of this Opinion, that these assertions
suffice to show a constitutional violation under the
Fourteenth Amendment under the circumstances.
Nevertheless, the asserted constitutional violation—
that the Officers forced Mr. King to participate in a
dangerous sting operation with deliberate indifference
to his health and safety in violation of the Fourteenth
Amendment—is not clearly established.
Mr. King confronts a mighty obstacle in setting out
a clearly established constitutional violation. “For the
law to be clearly established to the point that qualified
immunity does not protect a government official, ‘preexisting law must dictate, that is, truly compel (not just
suggest or allow or raise a question about), the conclusion for every like-situated, reasonable government
agent that what defendant is doing violates federal law
in the circumstances.’ ” See Hudson v. Hall, 231 F.3d
1289, 1294 (11th Cir. 2000). A government official is entitled to qualified immunity unless only a plainly incompetent official or one who was knowingly violating

App. 41a
the law would have committed the acts alleged to have
violated the Constitution. Malley v. Briggs, 475 U.S.
335, 341 (1986).
As noted above, Mr. King argues that the Officers
violated a clearly-established constitutional rule derived from the Fourteenth Amendment. The Fourteenth Amendment’s due process clause protects
individuals from arbitrary and conscience-shocking
abuses of power by government officials that deprive
them of life, liberty, or property; this right is known as
“substantive due process.” See U.S. Const, Amend. XIV;
see, e.g., Waddell v. Hendry Cnty. Sheriff ’s Office, 329
F.3d 1300, 1305 (11th Cir. 2003). But, in this case, the
parties do not dispute that Mr. Brown, not the Officers,
directly created and caused the harms that befell Mr.
King. And, under the Fourteenth Amendment, a government official generally does not carry a duty to
shield people from harms created and caused by third
parties. See White v. Lemacks, 183 F.3d 1253, 1257
(11th Cir. 1999).
But when a government official possesses a custodial power over a person and displaces that person’s
ability to protect himself, the official’s deliberate indifference to that person’s safety from predictable thirdparty harms may “shock the conscience” and violate
the Fourteenth Amendment. See Vaughn v. Athens, 176
Fed Appx. 974, 977 (11th Cir. 2006) (concluding that
plaintiff who State released from jail on personal recognizance in exchange for work as confidential informant was not under the government’s “custodial
power” and, therefore, defendant state agents had no

App. 42a
automatic duty under the Fourteenth Amendment to
protect plaintiff from third-party harms suffered in the
course of plaintiff ’s work as confidential informant). As
the Eleventh Circuit has stated: “the only relationships that automatically give rise to a governmental
duty to protect individuals from harm by third parties
under the substantive due process clause are custodial
relationships, such as those which arise from the incarceration of prisoners or other forms of involuntary confinement through which the government deprives
individuals of their liberty and thus of their ability to
take care of themselves.” White, 183 F.3d at 1257; see
also County of Sacramento v. Lewis, 523 U.S. 833, 85052 (1998).
Furthermore, courts have observed that “deliberate indifference” is only the minimal intent necessary
to establish a Fourteenth Amendment violation.
Waddell, 329 F.3d at 1306. The Supreme Court has
suggested that the requisite intent may be higher depending on the circumstances, which include the state
actor’s ability to deliberate about whether action or inaction might protect a person from third-party harms.
Lewis, 523 U.S. at 850-52.
At the time of the sting that resulted in his injuries, Mr. King was not confined or otherwise incarcerated in the traditional sense. But the state cannot
evade liability for a shark attack when it forced the
victim to play the role of bait—a role that carries predictable and inherent risks of harm. Cf. Vaughn, 176
Fed. Appx. at 977 (affirming dismissal of Fourteenth
Amendment deliberate-indifference claim based on

App. 43a
qualified immunity because plaintiff was not in custody and “the complaint does not allege that [the plaintiff ] was forced to function as an informant.”). In that
situation, government officials invite liability under
the Fourteenth Amendment for their deliberate indifference to the victim’s safety because, by their actions,
they remove the victim’s ability to choose whether he
faces those inherent risks. The victim survives or
avoids harm at the state’s discretion, not his own. See
DeShaney v. Winnebago Cnty. Dep’t of Social Servs.,
489 U.S. 189, 199-200 (1998) (“The affirmative duty to
protect arises . . . from the limitation [that the state]
has imposed on [the victim’s] freedom to act on his own
behalf.”); see also K.H. v. Morgan, 914 F.2d 846, 848-49
(7th Cir. 1990) (Posner, J.) (“[T]he state would be a doer
of harm . . . just as the Roman state was a doer of harm
when it threw Christians to the lions.”). Therefore, if
the Officers deprived Mr. King of his ability to choose
whether he participated in the sting, the law burdened
the Officers with an affirmative duty to protect Mr.
King from Mr. Brown’s violent acts.
So, in this case, the critical question is whether Mr.
King voluntarily consented to act as bait, or whether
the Officers forced him on the hook, making them responsible for the harms Mr. King suffered during their
fishing expedition. And, to show that a constitutional
violation premised on a lack of voluntary consent4 was
4

As noted above, the court assumes that Mr. King established that he did not voluntarily consent to participate in the
sting. To find that an individual voluntarily consented, the court
would consider the totality of the circumstances and conclude that

App. 44a
“clearly established,” a plaintiff must identify case law
“holding that a similar statement in similar circumstances was sufficiently coercive to render an otherwise-voluntary consent involuntary.” See Hudson, 231
F.3d at 1297 (addressing under § 1983 and Fourth
Amendment whether clearly established violation existed when defendant police officer, after making coercive remark, searched plaintiff without his consent).
Here, the acts that Mr. King asserts resulted in his
consent becoming involuntary were, first, the Officers’
remarks to him that they would bring “serious”
charges against him and, second, the Officers’ remarks
to him that they would “f--- [him] over.” Mr. King points
to no cases with similar statements and similar circumstances that would have put the Officers on notice
that their remarks were improperly coercive. The court
has likewise found no sufficiently similar cases.
Instead, Mr. King argues that the Officers’ conduct
was so egregious that any reasonable officer would
know that this conduct violated Mr. King’s constitutional rights. When the coercive nature of a police officer’s statements or actions is at issue and no on-point
cases otherwise establish their coercive nature, the impropriety of the statements or actions must be “plain”
or “obvious” to any reasonable officer under the circumstances. See Hudson, 231 F.3d at 1297-98 (“[B]ecause
the impropriety of Officer Hall’s statement was not
the individual’s decision was “the product of an essentially free
and unconstrained choice.” Hudson, 231 F.3d at 1296 (quoting
United States v. Garcia, 890 F.2d 355, 360 (11th Cir. 1989)).

App. 45a
obvious and because no materially similar, pre-existing
case law was around, a reasonable police officer in the
circumstances might not have known that Meadows’
consent was involuntary.”); see also Crocker v. Beatty,
886 F.3d 1132, 1136 (11th Cir. 2018) (observing that a
constitutional rule or principle can be clearly established if “every objectively reasonable government official facing the same circumstances would know that
his conduct violated federal law at the time he acted.”).
But Mr. King overstates the obviousness of the improperly coercive nature of the Officers’ remarks in
this case. Considering their context and the circumstances, they were not “plainly” or “obviously” improper; even if Mr. King could reasonably interpret the
remarks as threats, a reasonable officer would not
know that these remarks rendered Mr. King’s agreement to participate in the sting operation involuntary.
First, Mr. King infers too much from the Officers’
use of the word “serious”; on the basis of that word
alone, Mr. King concludes that the Officers would plant
evidence on him or otherwise prosecute him for crimes
he did not commit. Yet Mr. King does not dispute that
the Officers made these statements in the context of
their threats to revoke his probation and to impound
his girlfriend’s car. Revocation of probation alone can
cause serious consequences.
Nor does Mr. King dispute that the Officers could
entice him to cooperate with these prosecutorial concessions. And, although the court has found no on-point
rule from the Eleventh Circuit, persuasive authority

App. 46a
outside the Eleventh Circuit confirms the generally accepted truth that police officers can entice cooperation—even for cooperation in very dangerous stings—
through these types of concessions, at least to a degree.
See Alexander v. DeAngelo, 329 F.3d 912, 918 (7th Cir.
2003) (Posner, J.) (“[C]onfidential informants often
agree to engage in risky undercover work in exchange
for leniency. . . . The rub here is that [plaintiff ] . . . was
intentionally and grossly deceived [about the seriousness of potential charges if she failed to cooperate]. . . .
[But] we cannot say that it would have been obvious to
the average officer that the deceit employed in this
case rose to the level of a constitutional violation.”).
And here, even though Mr. King maintains that he
did not consider charges that resulted in revocation of
his probation to be “serious,” most other people, including a reasonable officer, would indeed. Adding to the ire
of the court, Mr. King presumably would face the ire of
his girlfriend, if her car were impounded—serious indeed. For those reasons, the court cannot say that the
Officers’ threat to bring “serious” charges against Mr.
King would have been plainly or obviously coercive to
a reasonable officer.
Second, considered with context, the parallel
structure of the Officers’ statement that they would
“f--- over” Mr. King if he “f--- [ed] over” the police, might
suggest, at bottom, that, if Mr. King refused to help the
police, they would refuse to help him. That is, if Mr.
King would not help, the Officers would not ignore that
Mr. King had violated his probation or that he was
driving a car without a driver’s license. So, even if Mr.

App. 47a
King’s interpretation of the Officers’ remark is reasonable from his point of view, a reasonable officer could
nevertheless see it as innocuous enticement. The statement’s ambiguity means that it was neither plainly nor
obviously coercive. See Hudson, 231 F.3d at 1297-98.
Indeed, Mr. King himself testified that the Officers’ statement could have meant “anything,” including—but not necessarily—violence. The court agrees:
curse-based exclamations derive much, if not all, their
meaning from the context and the non-verbal acts that
surround them. So, with the right context, the Officers’
same remarks could have been plainly improper to a
reasonable officer. But here, Mr. King identifies not one
non-verbal act by the Officers or other circumstance
that would indicate their remarks plainly suggested
violence. For example, although Mr. King testified that
the officers surrounded him while he was handcuffed,
he did not testify that the officers had pulled their guns
or other weapons at that point in the encounter or otherwise physically intimidated or threatened him. Taking these circumstances into account, the court cannot
conclude that the Officers’ statements would be plainly
or obviously coercive to a reasonable officer.
Lastly, Mr. King urges the court to consider
whether the constitutional violation was clearly established through the wide lens of whether he was “in
custody” at the time of the shooting. He opines that,
because he was “in custody”—i.e., he was not free to
leave—at the time of the shooting, the Officers violated
a clearly established constitutional right.

App. 48a
True enough, a government official cannot act
with deliberate indifference toward the health and
safety of an individual over whom he has restrained
liberty. See DeShaney, 489 U.S. at 199-200. But that
general rule alone lacks adequate specificity to put a
reasonable officer on notice that the Officers’ actions
under these circumstances violated the Fourteenth
Amendment. See Forrester v. Stanley, 394 Fed. Appx.
673, 675 (11th Cir. 2010) (“DeShaney by no means establishes that it would be clear to a reasonable officer
in [the defendant officer’s] position that he had an affirmative duty of care to [the plaintiff ] or that his conduct violated that duty in contravention of the
Fourteenth Amendment.”).
Indeed, the Supreme Court has recently reaffirmed that “ ‘clearly established law’ should not be
defined ‘at a high level of generality.’ ” White v. Pauly,
137 S. Ct. 548, 552 (2017) (citations omitted) (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011)). Rather,
“the clearly established law must be ‘particularized’ to
the facts of the case.” Pauly, 137 S. Ct. at 552 (citing
Creighton, 483 U.S. at 640); cf. Lewis, 523 U.S. at 85051 (opining that the “[r]ules of due process are not . . .
subject to mechanical application in unfamiliar territory” and stating that “[d]eliberate indifference that
shocks in one environment may not be so patently
egregious in another, and our concern with preserving
the constitutional proportions of substantive due process demands an exact analysis of circumstances before any abuse of power is condemned as conscience
shocking.”).

App. 49a
And, particularizing this law to the facts of this
case, the legal question of whether the Officers’ acts
“shock the conscience” turns on whether Mr. King voluntarily consented to lure in Mr. Brown. Because a reasonable officer would not have known that the Officers’
remarks deprived Mr. King of any meaningful choice
about whether to act as bait, the court must conclude
that the Fourteenth Amendment substantive due process violation alleged by Mr. King in this case was not
clearly established.
The Officers, therefore, are entitled to qualified
immunity. The court will GRANT the Officers’ motion
for summary judgment as to Mr. King’s Fourteenth
Amendment Substantive Due Process Claim.
II. State-Law Claims: Negligence, Wantonness,
and False Imprisonment (Counts 4, 5, and 7)
In addition to his § 1983 and Fourteenth Amendment substantive due process claim, Mr. King argues
that the Officers acted negligently and wantonly in
planning the sting operation and that they falsely imprisoned him. The Officers assert that Alabama law entitles them to state-agent immunity on these state-law
claims.
In Alabama, “state-agent immunity” generally
shields a police officer “from tort liability arising out of
his or her conduct in performance of any discretionary
function within the line and scope of his or her law enforcement duties.” Ala. Code § 6-5-338(a). The officer
claiming state-agent immunity must first demonstrate

App. 50a
that his actions arose from a function that would entitle him to state-agent immunity, i.e., that his “discretionary function” actions fell “within the line and
scope of his or her law enforcement duties.” Ex parte
Kennedy, 992 So. 2d 1276, 1282 (Ala. 2008). If the
officer makes that showing, the burden shifts to the
plaintiff to show that an exception to state-agent immunity applies. Id.
The Officers have shown that their actions arose
from their discretionary functions as police officers. Mr.
King does not dispute that the Officers detained him
and planned the sting operation as part of their duties
as police officers—only that the Officers wrongfully
coerced him into participating in the sting operation.
Because the allegedly wrongful acts arose from the Officers’ discretionary effort to enforce Alabama’s criminal laws, the burden shifts to Mr. King to identify an
exception to state-agent immunity. See Ex parte Cranman, 792 So. 2d 392, 405 (Ala. 2000) (“[E]xercising
judgment in the enforcement of the criminal laws of
the State” constitutes a discretionary function from
which state-agent immunity arises).
The Alabama Supreme Court has identified two
exceptions to Alabama state-agent immunity: first,
“when the Constitution or laws of the United States, or
the Constitution of [Alabama], or laws, rules, or regulations of [Alabama] enacted or promulgated for the
purpose of regulating the activities of a governmental
agency require otherwise; or [second] when the State
agent acts willfully, maliciously, fraudulently, in bad
faith, beyond his or her authority, or under a mistaken

App. 51a
interpretation of the law.” Cranman, 792 So. 2d at 405
(emphasis added).
Mr. King offers an argument for each exception.
Under the first exception, Mr. King contends that the
Officers violated both the U.S. Constitution and Alabama’s harassment statute, such that those laws “require otherwise.” But Mr. King misreads the first
exception to state-agent immunity, incorrectly substituting the term “violates” for the actual text—“require[s] otherwise.” See id. The question is whether the
Constitution or any other law requires the stripping
of immunity in these circumstances, not whether the
Officers might be liable under any particular constitutional provision or statute. See id. Reading the exception using Mr. King’s construction of the language
would, in effect, eviscerate this immunity from suit because an immunity that evaporates upon any plausible
claim or evidence of liability provides no meaningful
protection from suit. See Giambrone v. Douglas, 874
So. 2d 1046, 1052 (Ala. 2003) (describing state-agent
immunity as an “immunity from suit”).
And, here, neither the U.S. Constitution nor Alabama’s harassment statute require the stripping of
immunity. The Constitution does not require the stripping of immunity for state-law offenses based on the
existence of a constitutional violation; indeed, its text
does not address the issue at all. Likewise, Alabama’s
harassment statute says nothing about whether violating it strips a police officer of state-agent immunity.
See Ala. Code § 13A-11-8(2).

App. 52a
Next, Mr. King contends that the Officers acted beyond their authority, so as to invoke the second Cranman exception. Specifically, Mr. King points to the City
of Warrior police department regulations that prohibit
physical coercion of suspects and dictate that officers
“shall not use duress or coercion nor mistreat an accused person in any way when endeavoring to obtain
investigative information.” (Doc. 81 at 29).
True, a state-agent acts beyond his authority and
loses immunity if, in the pursuit of his duties, he fails
to follow “detailed rules or regulations.” Giambrone,
874 So. 2d at 1052 (quoting Ex parte Butts, 775 So. 2d
173, 178 (Ala. 2000)). But the failure to follow a rule or
regulation erases a state agent’s immunity only if the
rule provided “specific instructions” to the state agent
or was otherwise “checklist-like.” Giambrone, 874 So.
2d at 1052. The rule or regulation must “remove a
[s]tate agent’s judgment in the performance of required acts;” “general statements” or standards do not
suffice to invoke Cranman’s second exception to stateagent immunity. Id. In other words, to invoke the second Cranman exception, a rule or regulation must be
so specific that it removes the state agent’s discretion
and puts him on notice that certain, specific acts are
unacceptable. See Ex parte Ingram, 229 So. 3d 220,
230-31 (Ala. 2017) (noting similarities in analysis of
beyond-authority exception for state-agent immunity
and of “clearly established” constitutional violation for
qualified immunity); see, e.g., Giambrone, 874 So. 2d at
1054 (vitiating state-agent immunity for high-school
wrestling coach when he violated specific regulation

App. 53a
prohibiting use of a certain wrestling technique on students).
As the Officers observe, the regulations to which
Mr. King points are not the kind of detailed, discretionstripping regulations contemplated by the Alabama
Supreme Court. See Giambrone, 874 So. 2d at 1052.
Rather, the regulations identified by Mr. King are
broad regulations that allow significant discretion to
the acting officer to determine what acts constitute
“duress” or “coercion.” These rules or regulations do not
suffice to erase a police officer’s state-agent immunity.
See Howard v. City of Atmore, 887 So. 2d 201, 207 (Ala.
2003) (concluding that correction officer’s potential
violation of a regulation that required him to intermittently check on incarcerated “drug addicts” did not
“strip him of his cloak of [s]tate-agent immunity” because the regulation left to the officer’s discretion and
judgment the determination of which inmates were
drug addicts). Mr. King has thus failed to identify an
applicable exception to state-agent immunity.
For those reasons, the Officers are entitled to
state-agent immunity as to Mr. King’s negligence,
wantonness, and false imprisonment claims. The court
will GRANT summary judgment in the Officers’ favor
as to those state-law claims.
CONCLUSION
The court will GRANT the Officers’ motions for
summary judgment in all respects. The Officers are
entitled to qualified immunity as to Mr. King’s § 1983

App. 54a
claim and state-agent immunity as to Mr. King’s negligence, wantonness, and false imprisonment claims.
The court will ENTER SUMMARY JUDGMENT in the
Officers’ favor on these claims by separate order.
DONE and ORDERED this 6th day of September, 2018.
/s/ Karon O. Bowdre
KARON OWEN BOWDRE
CHIEF UNITED STATES
DISTRICT JUDGE

App. 55a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
TRINELL KING,
Plaintiff,
v.
COREY ARCHER, et al.,
Defendants.

]
]
]
] CIVIL ACTION NO.
] 2:17-CV-174-KOB
]
]
]
]

FINAL ORDER
(Filed Sep. 6, 2018)
For the reasons stated in the court’s Memorandum
Opinion, filed contemporaneously, the court GRANTS
Defendants Corey Archer, Ricky Pridmore, and Andrew Hill’s motions for summary judgment in all respects. (Docs. 63, 67). The court DENIES their “Motion
to Strike” docs. 79, 80-1 and 80-2. (Doc. 85). The court
ENTERS SUMMARY JUDGMENT in favor of Defendants Corey Archer, Ricky Pridmore, and Andrew
Hill. Defendant Ray Horn’s motions for summary judgment (docs. 62, 69) are MOOT because the court previously dismissed Mr. Horn from the suit (doc. 87). As
no claims remain in the action, the court DIRECTS
the Clerk of Court to CLOSE this case.

App. 56a
The court taxes costs as paid.
DONE and ORDERED this 6th day of September, 2018.
/s/ Karon O. Bowdre
KARON OWEN BOWDRE
CHIEF UNITED STATES
DISTRICT JUDGE

App. 57a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-14245-HH
-----------------------------------------------------------------------

TRINELL KING,
Plaintiff - Appellant,
versus
WARRIOR, THE CITY OF, et. al.,
a municipality
Defendants,
RICKY PRIDMORE,
an individual
COREY ARCHER,
an individual
ANDREW HILL,
an individual
Defendants - Appellees.
---------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Alabama
---------------------------------------------------------------------------------------------------------

App. 58a
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
(Filed Jul, 30, 2020)
BEFORE: ROSENBAUM and ED CARNES, Circuit
Judges, and VINSON,* District Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel
and is DENIED. (FRAP 35, IOP2)

* Honorable C. Roger Vinson, United States District Judge
for the Northern District of Florida, sitting by designation.

